U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

October 5, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: O’Donnell v. Kijakazi, No. 20-7883
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on April 27, 2021.
The government’s response is now due, after one extension, on October 14, 2021. We respectfully
request, under Rule 30.4 of the Rules of this Court, a further extension of time to and including
November 15, 2021, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Brian H. Fletcher
Acting Solicitor General
cc:

See Attached Service List

20-7883
O'DONNELL, KATHLEEN M.
ANDREW M. SAUL, COMMISSIONER OF SOCIAL
SECURITY

JOHN EDWARD HORN
HORN & KELLEY, PC
16710 OAK PARK AVENUE
TINLEY PARK, IL 60477
7086148833

